<html>
<title> - HEARING ON THE NOMINATION OF PAUL TROMBINO III TO BE ADMINISTRATOR OF THE FEDERAL HIGHWAY ADMINISTRATION</title>
<body><pre>[Senate Hearing 115-119]
[From the U.S. Government Publishing Office]



                    
                                                        S. Hrg. 115-119
 
 HEARING ON THE NOMINATION OF PAUL TROMBINO III TO BE ADMINISTRATOR OF 
                   THE FEDERAL HIGHWAY ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 5, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  
  


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
                              _________ 
    
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-320 PDF                 WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001             
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 5, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                                WITNESS

Trombino, Paul III, nominated to be Administrator of the Federal 
  Highway Administration.........................................     4
    Prepared statement...........................................     7
    Responses to additional questions from:
        Senator Carper...........................................    10
        Senator Booker...........................................    16
        Senator Capito...........................................    17
    Response to an additional question from Senator Duckworth....    18
    Responses to additional questions from:
        Senator Fischer..........................................    18
        Senator Harris...........................................    19
    Response to an additional question from:
        Senator Moran............................................    21
        Senator Shelby...........................................    22
    Responses to additional questions from Senator Whitehouse....    22


 HEARING ON THE NOMINATION OF PAUL TROMBINO III TO BE ADMINISTRATOR OF 
                   THE FEDERAL HIGHWAY ADMINISTRATION

                              ----------                              


                       THURSDAY, OCTOBER 5, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m. in room 
406, Dirksen Senate Building, Hon. John Barrasso (Chairman of 
the Committee) presiding.
    Present: Senators Barrasso, Inhofe, Fischer, Rounds, Ernst, 
Sullivan, Carper, Whitehouse, Gillibrand, and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. I call this hearing to order.
    Today we are going to consider the nomination of Paul 
Trombino to serve as Administrator of the Federal Highway 
Administration, the FHWA at the United States Department of 
Transportation. Congratulations.
    Mr. Trombino is well qualified and brings broad expertise 
and over 20 years of experience as a State and national 
transportation leader to the critically important role of 
maintaining and improving our nation's roads, highways, and 
bridges.
    He served as director of the Iowa Department of 
Transportation for more than 5 years. Prior to that, he worked 
for 17 years at the Wisconsin Department of Transportation, 
where he served at different times as bureau director, 
operations director, and civil engineering supervisor of the 
Highway Division.
    From 2015 to 2016 he served as president of the American 
Association of State Highway and Transportation Officials, 
AASHTO. AASHTO is a non-profit, non-partisan association 
representing highway and transportation departments in all 50 
States, the District of Columbia, and Puerto Rico.
    In 2016 he served as vice-chair of the Transportation 
Research Board's Executive Committee, an advisory group to the 
Chairman and Governing Board of the National Research Council 
on the nation's transportation system. In 2014, he served as 
president of the Mid America Association of State 
Transportation Officials.
    I applaud President Trump's nomination of such a highly 
accomplished and dedicated public servant for this important 
position. The Federal Highway Administration plays a central 
role in ensuring the mobility of the American people and the 
goods and services on which we all rely.
    The FHWA supports State, local, and tribal governments by 
providing financial support and offering technical assistance 
in the design, construction, and maintenance of our nation's 
highways, roads, and bridges. The FHWA also advances innovative 
practices and technology deployment that facilitate 
transportation project development, construction, and 
maintenance, and that enhance roadway safety.
    America's transportation infrastructure faces a lot of 
challenges. The next Administrator will grapple with many of 
them. With the President's call for an infrastructure bill, 
this Committee has heard from a broad range of stakeholders 
about how the Congress can better help the FHWA, State 
departments of transportation, private sector companies, and 
other stakeholders invest public resources in a sound and 
effective way to modernize America's transportation 
infrastructure.
    The President has called on us to maximize the impact of 
taxpayer dollars. This Committee has already held seven 
hearings on how we can accomplish this goal. Working closely 
with its members, we are well on our way to creating a 
legislative blueprint that will address America's most critical 
infrastructure needs.
    I was pleased to read last week that my friend and Ranking 
Member, Senator Carper, wants to join the process of crafting 
an infrastructure bill that will make America great again. I 
look forward to his participation and input into this process.
    Clearly one item we can all agree on is the need to quickly 
confirm Paul Trombino. For far too long, the FHWA has been 
without Senate confirmed leadership. Confirming Mr. Trombino to 
be Administrator of the Federal Highway Administration will be 
an important step in addressing our nation's infrastructure 
needs.
    I will now turn to Ranking Member Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    Good morning. It is great to see you and your wife of 27 
years. We are glad you are both here. As I said, you are almost 
an audience of one.
    We are glad you are here. Congratulations on your 
nomination, and thanks for your willingness to serve. Thank you 
for your willingness to share him with the people of our 
country.
    I also want to express my gratitude to the career Federal 
Highway employees in Delaware and 49 other States and the 
territories, particularly those involved in providing emergency 
funds and other assistance for folks in Texas, Florida, Puerto 
Rico, and the Virgin Islands who are still wrestling with some 
very difficult, challenging situations.
    If confirmed, Mr. Trombino, you will play a critical role 
in helping to support communities in need across this nation 
when disaster strikes. More broadly, you would be responsible 
for administering our nation's Federal Aid Highway Program.
    Under this program, State, local, and tribal governments 
own and maintain most of our nation's highways and bridges, as 
you know. It is Federal Highway's role to distribute funding to 
these units of government for construction, for improvement, 
and for preservation of our transportation infrastructure and 
to work with all levels of government to ensure that highways 
and bridges are safe, support economic development, and protect 
and enhance our environment.
    I have long maintained that if something is worth having, 
it is worth paying for. I believe it is worth investing in a 
safe, reliable, and modern transportation system. I look 
forward to working with you and others to identify creative 
ways to address our long term transportation needs in a 
fiscally responsible way.
    To that end, Mr. Trombino, I am especially interested in 
finding out how you worked in Iowa to raise the gas by 10 cents 
a gallon. I would be interested in hearing how you were able to 
make that happen. I know Terry Branstad, the Governor, left the 
country shortly after that to become the Ambassador to China, 
where they have great infrastructure, by the way.
    To that end, Mr. Trombino, your nomination comes at a 
critical juncture for the agency, the transportation sector, 
and the traveling public as we confront the enormous challenges 
in opportunities to modernize and rebuild our aging 
transportation infrastructure.
    The condition of America's infrastructure received a D+ on 
the 2017 American Society of Civil Engineers report card. Our 
nation's crowded and under-funded roadways got an even lower 
grade of D, no plus.
    America's roads have also become more dangerous. The 2015 
data indicates that over 35,000 people died in motor vehicle 
crashes across our nation's highways. Sadly, that figure is a 7 
percent increase from 2014. It is the largest percentage 
increase, I am told, in some 50 years. The latest estimates 
show that highway deaths surpassed 40,000 last year for the 
first time in a decade.
    In my home State of Delaware, we have one of the highest 
pedestrian fatality rates of any State in the country. 
Unfortunately, we are not alone. The number of pedestrian 
fatalities in the U.S. increased 25 percent from 2010 to 2015. 
It is estimated that the number of pedestrian deaths increased 
by another 11 percent in 2016 over 2015. To put that into 
context, nearly 1 in 6 deaths on our roads involves a 
pedestrian. If confirmed, we expect to closely work with you to 
make sure that safety is a priority when it comes to funding 
our Federal highway system.
    In closing, we look forward to hearing your thoughts on 
these and other related issues. We thank you again for your 
willingness to serve and for your willingness to share him.
    Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    Now, I would like to invite Senator Ernst to introduce the 
nominee.
    Senator Ernst. Thank you, Mr. Chairman.
    It is hard to follow our Ranking Member, for heaven sakes.
    I am greatly optimistic with this nomination. Thank you 
very much, Paul, for being here today.
    I have the great honor today of introducing a fellow Iowan, 
Mr. Paul Trombino, the nominee to head the Federal Highway 
Administration. I would like to welcome Trish as well. It is 
really good to see you again.
    Mr. Trombino currently serves as President of McClure 
Engineering Company, an Iowa-based firm specializing in 
transportation and public works infrastructure projects. He 
previously served as the Director of the Iowa Department of 
Transportation from 2011 to 2016 and as Bureau Director for the 
Wisconsin Department of Transportation from 2002 to 2011.
    Mr. Trombino has also served as President of the Mid 
America Association of State Transportation Officials and as 
President of the American Association of State Highway and 
Transportation Officials.
    As both a State Senator and a U.S. Senator, I had the 
pleasure of working with Mr. Trombino while he served at Iowa 
DOT. He proved to be an invaluable partner and resource. I am 
confident that the members of this Committee will be equally 
impressed by his qualifications and his track record.
    Iowans back home are proud of your nomination and believe 
there is no one better qualified to lead the Federal Highway 
Administration, especially when we are at such a critical time 
for our nation's infrastructure.
    I look forward to hearing your testimony today. I thank you 
for your willingness to serve your country in this capacity.
    Thank you, Paul.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Ernst.
    Now, I would like to welcome our nominee to the committee, 
Mr. Paul Trombino, nominee to be Administrator of the Federal 
Highway Administration, U.S. Department of Transportation.
    I want to remind you that your full testimony will be made 
part of the record. We all look forward to hearing your 
testimony today. Would you like to introduce your family and 
then please proceed with your testimony?

 STATEMENT OF PAUL TROMBINO III, NOMINATED TO BE ADMINISTRATOR 
             OF THE FEDERAL HIGHWAY ADMINISTRATION

    Mr. Trombino. Thank you, Mr. Chairman.
    With me, I have my wife, Trish, to my right. As Senator 
Carper pointed out, she is my wife of 27 years. Unfortunately, 
our two children are busy with their studies at Iowa State 
University, so they were not able to be here today. Thank you 
very much for the opportunity.
    Chairman Barrasso, Ranking Member Carper, and members of 
the Committee, again, thank you for the opportunity to appear 
before you today. If I am confirmed, I look forward to working 
with all of you to advance mobility on the nation's highways.
    I also want to again thank Senator Joni Ernst for her very 
kind introduction. As Director of the Iowa Department of 
Transportation, I was honored to work with then Iowa State 
Senator and now U.S. Senator Ernst on improving the 
transportation system in the State of Iowa.
    Again, I am pleased to have with me my wife, Trish. 
Unfortunately, our two children were not able to attend today 
due to their busy studies.
    I am very grateful to President Trump and Secretary Chao 
for their confidence in my ability to serve in this key 
transportation position. The nation's highway system has always 
played a vital role in the quality of life of our people and 
provided a competitive advantage to our nation's businesses. 
This is still true today.
    I have been blessed with a wonderfully diverse career in 
transportation for over 20 years, and if I am confirmed, these 
experiences will prove valuable to my new role at the 
Department of Transportation. I have worked for two different 
State departments of transportation in Wisconsin and Iowa. 
While at the Wisconsin Department of Transportation, I held 
senior executive roles as Operations Director for the Highway 
Division and Director of Statewide Bridges. In Iowa, I served 
under former Governor Branstad as Director of the Iowa 
Department of Transportation.
    During these two State government experiences, I gained 
keen insight into executing highway improvement projects, 
regulatory policies, and developing broad modal diversity in 
the transportation system. While Director of the Iowa 
Department of Transportation, I served in leadership roles for 
our national State departments of transportation association--
the American Association of State Highway and Transportation 
Officials, AASHTO--which was rewarding not only for building 
relationships with colleagues but also from sharing best 
practices and lessons learned.
    Finally, I have served in a leadership role with the 
National Academies of Sciences, Engineering, and Medicine 
Transportation Research Board, which is working with academia 
toward new processes and technology improvements across all 
modes.
    The core value of all transportation agencies is safety, 
and this value binds us across all levels of government and 
across all modes of transportation. The safety of the traveling 
public must continue to be the primary objective.
    Today, we are in an age of accelerating technological 
advancement in transportation vehicles, infrastructure, and 
systems. As these new technologies are developed and in the 
future become commonly available and used by the public, the 
challenge of promoting the public's safety while encouraging 
innovation will be increasingly important.
    If confirmed as Federal Highway Administrator, I will be 
involved in helping to rebuild America's highways and bridges. 
Much needs to be done in this area, and I am eager to play a 
role in launching critical infrastructure projects as well as 
in maintaining America's highway network.
    Certainly, as the President has called for, we need a new 
emphasis on building and repairing infrastructure as well as 
common sense reforms in Federal permitting. I support permit 
streamlining and look forward to contributing to responsible 
changes that reduce the time and money project sponsors must 
spend before a project can even begin. I do not believe we have 
to sacrifice environmental goals to accomplish process and 
paperwork reduction.
    I have had wonderful experiences of directly working with 
policymakers at the city, county, State, and Federal Government 
levels in transportation related projects and policy. One of 
the most valued lessons gained in my career have been the 
importance of establishing excellent communication and working 
relationships with policymakers.
    If I am confirmed, I commit to working with Members of 
Congress--and particularly this Committee--to achieve 
successful outcomes for transportation and the nation's 
highways. If I am confirmed, I look forward to the opportunity 
to work with all of you to improve the safety and mobility of 
all Americans.
    The nation's highway system has long been the driving force 
for economic opportunity and success in the United States, and 
I am truly humbled at the opportunity to help advance the 
quality of life of Americans across the country through 
transportation.
    Again, thank you for the opportunity to appear here today.
    [The prepared statement of Mr. Trombino follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Senator Barrasso. Congratulations again on your nomination.
    Throughout this hearing, we are going to ask questions that 
will be on the record. The Committee members will also have an 
opportunity by doing this to learn more about your commitment 
to public service and the nation's service.
    I would also ask throughout the hearing that you please 
respond to every question we ask, and there may be some also 
submitted in writing for the record.
    I have to ask the following questions that we ask all 
nominees on behalf of the entire Committee.
    Do you agree, if confirmed, to appear before this Committee 
or designated members of this Committee and other appropriate 
committees of the Congress and provide information subject to 
appropriate and necessary security protections with respect to 
your responsibilities?
    Mr. Trombino. Yes.
    Senator Barrasso. Do you agree to ensure that testimony, 
briefings, documents, and electronic and other forms of 
communication of information are provided to this Committee and 
its staff and other appropriate committees in a timely manner?
    Mr. Trombino. Yes.
    Senator Barrasso. Do you know of any matters which you may 
or may not have disclosed that might place you in any conflict 
of interest if you are confirmed?
    Mr. Trombino. No.
    Senator Barrasso. I am not going to ask any further 
questions at this time. I will reserve the balance of my time 
for use throughout the hearing.
    Senator Carper.
    Senator Carper. So far so good.
    Some of my colleagues had not arrived when I mentioned 
during my remarks that Iowa raised its--I do not know if it was 
the gas and diesel tax, but raised the user fee. I have felt, 
for a long time, those who use our roads, highways, and bridges 
should help pay for them, businesses and individuals as well.
    When you were president of AASHTO, I think we had this 
conversation more than a few times. George Voinovich and I 
proposed to restore the purchasing power of Federal gas and 
diesel tax to where it was in 1992, do it over 4 years, raising 
the gas and diesel tax by 4 cents a year and then indexing it 
after the fourth year.
    It would not give us all the money we need to do roads, 
highways, and bridges, but it would give us a whole lot more 
than we have today.
    Not long ago, my wife and I were at an Aspen Institute 
seminar with about 20 House and Senate members. We found, among 
other things, 98 percent of electricity there is generated by 
hydro, which is pretty impressive. They are the sixth largest 
resort with oil and gas in the world, and 40 percent of their 
cars are now electric.
    When you walk down the streets of towns and cities in 
Norway, you see citizen parking meters and places to plug in 
and recharge your car's batteries.
    I heard on the radio the other day on NPR that Ford and 
GM--one or both of them--have announced they are going to have 
at least 20 fully electric powered vehicles to introduce by 
2025, migrating away from gas and diesel not overnight but over 
time especially the way it ties in with these autonomous and 
semi-autonomous vehicles.
    I think eventually we will have to move to a road user 
charge, the kind of thing they are doing in Oregon on a small 
scale, the sort of thing we included language on in our 2015 
transportation bill kind of encouraging States to be 
laboratories of democracy.
    The easier part of our transportation legislation, frankly, 
is the authorization. We will work out things here and do so in 
a timely way. We will work out things with the other committees 
of jurisdiction.
    The hard thing is how do you pay for this stuff. The last 
time we tried to pay for this stuff we literally reached in and 
stole money from the Federal Reserve, and we had never done 
that before. We took oil in the strategic petroleum reserve; we 
paid high and sold low. We took money that was supposed to be 
used for customs fees for our points of entry across the 
borders. We took that money instead for roads, highways, and 
bridges, an awful policy.
    About 20-some States, I think, have actually raised their 
user fees in the last several years. People say how do they do 
that; how do they summon the courage to make those politically 
difficult choices?
    In my State, every year we put together the capital budget. 
I say this as a recovering Governor. The legislators have input 
to that. If we are asking to raise a user fee of some kind, the 
idea is if you support this, then you are more likely to get 
the kind of improvement you want in your Senate district or 
your House district. It is kind of an earmark, but it actually 
works, and we do not find it is something that has been used 
badly or poorly. It is not an outright call for a return to 
earmarks. I have another recovering Governor to my right.
    I think one of the problems here is it is hard for 
legislators to link their willingness to raise revenues with 
something they can show for it in their States and districts. I 
think that is part of the problem.
    I will stop there. Just respond, please. You have 12 
seconds.
    Mr. Trombino. I am not sure what the question was.
    Senator Carper. How did you do it in Iowa? You have seen 
20-some other States do something that is responsible to pay 
for this stuff. What can we learn from them?
    Mr. Trombino. I think many States have chosen to find 
funding alternatives for them. In transportation, they have all 
been different. I do not know if there is one that is exactly 
the same as another because the way they view and how they use 
transportation systems can be different. I think that is true 
across all areas.
    In my experience in the State of Iowa, my role was to 
provide options and alternatives. Ultimately the Governor and 
legislative leadership made the decision as to the funding 
mechanism they found best suited for the State.
    Senator Carper. You have 9 more seconds.
    Senator Barrasso. Senator Inhofe.
    Senator Inhofe. Thank you very much.
    First of all, let me say that this is a good opportunity to 
thank you and AASHTO under your leadership for all we have been 
able to accomplish.
    I have to say also when Senator Boxer was here, we spent 
about 15 years where I would be Chairman of this Committee, and 
she would be Ranking Member; then she would be Chairman of the 
Committee, and I would be Ranking Member, but we always worked 
very closely.
    One of the areas of cooperation was always in streamlining. 
There are a lot of people on the other side aisle that had a 
hard time with that. Yet we were able to get things done, get 
results and getting a lot more miles a lot quicker.
    You know the arguments but I want to ask you, in this 
meeting, for your commitment to continuing, not just what we 
have done in the past on streamlining, but looking for new 
opportunities that will be of help to us in the next project we 
do.
    Mr. Trombino. Yes, Senator, I do commit to continuing to 
improve the streamlining efforts that were offered obvious 
through MAP-21 and the FAST Act. I think those are important 
process improvements that need to continue to move forward to 
allow projects ultimately to get into infrastructure. I think 
those are some of the key ingredients.
    From my experience working with a lot of other States and 
my experience in my own State, we have a number of examples 
usually of projects where we have had some challenges sort of 
getting through the process.
    If it is OK, I will use an example from my perspective. In 
the State of Iowa, U.S. Highway 34 was a project that we worked 
on for many years. It is a bridge over the Missouri River 
between Nebraska and Iowa. It involved two States, two 
different Federal Highway offices, obviously the Army Corps, 
Fish and Wildlife, the EPA, and also involved the Department of 
Defense and Air Force.
    It was a very challenging project because it was very 
unclear who, at the Federal level, was the lead and 
decisionmaking authority, which took a long time to work 
through. The Federal agencies all had a different perspective 
of the preferred alternative. The time, length, and cost that 
involved was very significant for us as a State and very 
challenging at the end to implement.
    Senator Inhofe. In your written statement, you said you 
``support permit streamlining and responsible changes that 
reduce the time and money project sponsors must spend before a 
project can even begin.'' Do you want to elaborate very briefly 
on that?
    Mr. Trombino. Again, I would say the streamlining that was 
provided I think is clearly the right opportunity for all 
stewards of the system that implement projects. As a result, we 
need to continue to move in that fashion and use the authority 
obviously provided by Congress to make sure we are implementing 
those.
    My experience has been that there is always an opportunity 
to improve the process. My firm belief is that we can uphold 
the environmental protections that are in place that I have 
always seen in transportation.
    We want to make sure that project fits the environment in 
the context of the community, but there are ways for us to 
improve the pay for it process and the decisionmaking to make 
sure we are using the dollars as effectively as we can, getting 
that into the infrastructure and not in the process.
    Senator Inhofe. Yes, that would be good.
    I talked to Mike Patterson actually before our meeting in 
my office. He has worked with you, and he also talked about how 
you were working in conjunction with the Department of 
Transportation and the Department of Commerce.
    Can you briefly discuss your thoughts on the relationship 
between economic development in commerce and transportation?
    Mr. Trombino. Sure. My belief is transportation is all 
about economics. It provides the opportunity for people to 
pursue their quality of life and efficiency for business, so it 
is critically important for us to make sure, as we look at 
freight and product movement, much less people movement, that 
we are considering the economics of that and trying to make the 
system as efficient as we can because in today's global 
economic conditions, it is very critical. Transportation is the 
key ingredient for competitive products and ultimately, 
competitive services.
    Senator Inhofe. You mentioned freight. Of course we had the 
freight section in the FAST Act. I am sure you were very 
pleased with that.
    Thank you very much.
    Mr. Trombino. Yes. Thank you.
    Senator Barrasso. Thank you, Senator Inhofe.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Welcome, Mr. Trombino. Thanks for coming by the office the 
other day. I am looking forward to working with you on 
improving our infrastructure.
    I would join Senator Inhofe in his encouragement of process 
improvements and streamlining. Rhode Island has a recent 
example in offshore wind, having streamlined and made the 
process of siting much more effective.
    In the same waters, one State over, Massachusetts had a 
huge wind project that basically died on the regulatory cross. 
Ours is still in the water, electrons flowing, all systems go. 
It really can make a difference. Now the Republican Governor of 
Massachusetts is trying to follow more closely the Rhode Island 
model and reboot their system.
    Also, years ago I led a workers' compensation reform that 
focused on process and ended up reducing the cost per dollar of 
payroll by half without taking away benefits, just by focusing 
on process. I am a big believer in process reforms and 
streamlining.
    I am also familiar with the false flag of process reform 
and streamlining sometimes being flown simply to help private 
interests raid and ransack the environment and public spaces. 
We are going to have to really watch that boundary and make 
sure what we are doing is truly the former and not the latter. 
I look forward to working with you on that.
    We have seen a rather unseemly spectacle recently which was 
a member of the Cabinet telling a Senator that they would be 
punished in grants and in programs in their home State for 
voting the wrong way on a completely unrelated matter.
    I hope that we can get assurances from you that in your 
administration of highway grants, you will protect the 
integrity of the process and not allow political calls to be 
made and political threats to be made to influence that 
process. It has a process integrity of its own that I hope you 
will defend. Can we count on you for that?
    Mr. Trombino. If I am confirmed, Senator, I would make sure 
that as we have competitive process that is merit based, having 
worked in it from the State and local community side, I believe 
that is an important process overall when it comes to 
competitive grants.
    Senator Whitehouse. I think in the long run, if you find 
this becomes politicized, you will find support for the program 
dramatically decreasing. I do not think anyone wants that.
    Finally, some of us are from coastal States. A good deal of 
our infrastructure, including highway infrastructure, is highly 
vulnerable to sea level rise, storm surge, and the new symptoms 
of climate change.
    Rhode Island is looking at 9 to 12 feet of vertical sea 
level rise by the end of the century if we continue to do 
nothing here in Congress, if we continue to just allow the 
status quo to persist. Nine to 12 feet is pretty devastating 
for my State. I wish there was less stony lack of concern for 
that from my colleagues who are not in that position, but I 
feel a real obligation to try to defend my State whose map will 
change if we do not get ahead of this.
    In the meantime, there is a lot of infrastructure that is 
going to be put in harm's way by this. I want to get your 
assurance that coastal infrastructure under your jurisdiction 
will be treated with proper respect both as to the data about 
what the risk is and as to the projections for the life 
expectancy of new projects about what further risks are 
anticipated and expected by the professionals.
    Mr. Trombino. Yes, from my perspective, having had the 
opportunity to work in AASHTO, working with colleagues across 
the States, we all have different demands and needs on the 
system depending what is happening from a climate perspective, 
impacts, flooding, and the whole series of issues.
    Senator Whitehouse. You have seen it from a rainstorm 
perspective. We see it from a coastal perspective.
    Mr. Trombino. Right, and so it is important for us to work 
together to make sure we are identifying a process that 
ultimately makes sure the system is safe, resilient, and 
reliable. From my perspective, those are the three biggest 
things we need to do, so it has the ability to bring back and 
recover in a quick fashion and during certain circumstances 
that ultimately impact the quality of life and economic 
activity in every individual State.
    Senator Whitehouse. You will use proper data and proper 
projects in making those decisions?
    Mr. Trombino. Yes, I will.
    Senator Whitehouse. Very well. Thank you very much, I 
appreciate it. Best wishes to you.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    I also agree with Senator Whitehouse when it comes to 
fairness within the process and the withholding of grants in 
exchange for votes as detailed by Senator Whitehouse. I would 
also say there are a number of important nominees within the 
Department of Transportation that are being held up from 
receiving proper due process because of an exchange; we will 
only allow nominees to go forward if you fund a certain project 
in the northeast of the United States.
    Again, it goes back to fairness and not pushing other 
projects ahead of every other project out there. I am on my 
soap box, Mr. Trombino. I do believe it has to be a fair 
process. We do not want to see nominees held.
    Thank you for being here today. I am going to go back to 
something Senator Carper raised, raising the gas tax. That did 
happen in Iowa. Of course I left, and they raised it.
    The Federal Aid Highway Program receives most of its 
funding from the Federal gas tax. In recent years, we have seen 
declining gas tax revenues. That has forced us to use general 
fund transfers to plug funding gaps in the Highway Trust Fund. 
As our cars and vehicles become much more fuel efficient, we 
see the decline in the dollars coming in.
    Other than increasing the gas tax--which would really be an 
uphill battle here in Congress--what other ways are there that 
we can fund our roads and bridges?
    Mr. Trombino. Obviously the gas tax is a funding mechanism 
that is used. There are a number of alternatives. It is very 
dependent, as I often say, on each individual--from my 
perspective and my experience--State. I think every State views 
the system differently and has different opportunities as they 
seek to fund the system.
    At the State level, for sure, there are a multitude of 
opportunities that come forward not only from gas taxes, 
registration fees, and all types of other types of fees. Some 
even use some sort of sales tax. There is a mixture at the 
State level.
    I think when you get to the Federal level, there is a 
strong mix of opportunity in different types of fees and other 
things that can be potentially on the table, especially as it 
relates to freight and other types of issues as you look into 
the future.
    From my perspective, if I am confirmed, from the Federal 
Highway perspective, my role is to provide I would say advice 
and counsel, but at the end of the day, as my experience was in 
the State of Iowa, the Governor and the legislature had to make 
the decision on how they chose to fund the system. That would 
be the same here. Congress will actually make that decision on 
what mechanism is best.
    Senator Ernst. I appreciate that.
    Because we do come from a rural area, you may be more so, 
many folks understand the unique transportation challenges we 
do have. It is not as easy to just slap in a toll road. That is 
not going to pay for our little State highway in Iowa.
    As we continue to discuss the infrastructure package here 
in this Committee, can you provide some insight on the policies 
or policy changes that might be most beneficial to rural 
States?
    Mr. Trombino. To rural States as a whole? I would say from 
a funding perspective, there are a lot of alternatives. The key 
ingredient from my perspective is providing flexibility for 
States. As I said, every State is a little bit different. The 
rural needs and urban needs are different.
    Providing tools that allow them to implement projects that 
allow them to maximize the dollars for a specific project is 
really the key ingredient for them. As you mentioned before, 
tolls work in some States, and tolls do not work in some 
States. That is true also in the tools. P3s work in some 
States. It is a good tool. In some areas, they do not work.
    If I am confirmed as Federal Highway Administrator, I would 
advise Congress to make sure that tools have those 
opportunities to be used as the communities and States see fit.
    Senator Ernst. Very good. I appreciate it very much, Mr. 
Trombino. Thank you again for stepping up and being willing to 
serve in this capacity.
    Mr. Trombino. Thank you.
    Senator Ernst. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman and Mr. Ranking 
Member.
    I would like to talk about an issue that recently impacted 
several families in New York. In July of this year, three 
ambulance workers--Mr. Roderick Cota, Mr. Cory Moore and Mr. 
Gregg Williams--were killed when their vehicle crashed into the 
side of a disabled tanker that swerved to avoid a deer on the 
road. Mr. Moonjohn Kim was also killed when his vehicle hit the 
same tanker. Both vehicles struck the trailer and went 
completely under it. All passengers were pronounced dead at the 
scene.
    This tragedy is yet another example of an underride 
collision which results in death more often than not. In these 
accidents, many of the vehicle safety features are rendered 
worthless as the windshield is the first part of the car to 
come into contact with the truck. Since either there is nothing 
to prevent the car from continuing to slide under the truck or 
the existing rear guard fails, the top of the vehicle will be 
sheared off.
    You can take a look at this picture to see what happens to 
the occupants when you go under. They are decapitated. They die 
instantly.
    The Department of Transportation has been studying this 
issue of the slide underride since it put out a proposed 
rulemaking on rear underride guards in 1969. Since then, 
thousands of people have died in underride crashes throughout 
the country.
    First of all, are you aware that the Institute for 
Insurance and Highway Safety successfully tested a side 
underride guard in a 40 mile per hour crash test in August of 
this year?
    Mr. Trombino. I am not aware of that.
    Senator Gillibrand. Will you look into that so you can 
familiarize yourself?
    Mr. Trombino. Yes, if confirmed, I will definitely review 
the available information.
    Senator Gillibrand. In light of this development, do you 
think the Department of Transportation should consider issuing 
a rulemaking that requires trucks be equipped with side 
underride guards in order to prevent future tragedies like the 
ones that occurred in New York this summer?
    Mr. Trombino. If I am confirmed, Senator, I will make sure 
we will review all the information and work with you 
specifically so that we gather that to understand what the 
issues are.
    Senator Gillibrand. Since rear underride guards that are in 
compliance with Federal law often fail in these crash 
situations, do you believe it is necessary to update the 1998 
DOT rulemaking that required stronger performance standards?
    Mr. Trombino. Safety is at the core of everything we do. 
That is ongoing and should be a constant conversation to make 
sure we are providing the right safety amount of measures for 
the traveling public.
    Senator Gillibrand. If you are confirmed, will you give me 
a letter report within the first 3 months that you have 
reviewed this issue, and give me your views on it?
    Mr. Trombino. If I am confirmed, I will make sure that I 
review that issue and give you a report.
    Senator Gillibrand. Thank you so much.
    On the issue of highway privatization, the infrastructure 
outline that was released by the Trump administration as part 
of the President's fiscal year 2018 budget request outlined 
some really sweeping changes to how the Federal Government 
would invest in transportation. One of the principles outlined 
would turn over infrastructure assets to the private sector. Do 
you support privatizing existing highways?
    Mr. Trombino. I have not been involved in any of the 
conversations with regard to the infrastructure package. If I 
would be confirmed, I would really need to make sure that I get 
up to speed on those discussions.
    Senator Gillibrand. If private companies were allowed to 
take over highways, is it fair to assume that those companies 
would not be doing so purely as a public service but would be 
seeking to make a profit off operation of those highways?
    Mr. Trombino. Again, I would have to review that 
information so that I understand it.
    Senator Gillibrand. How would this impact highways that are 
currently not tolled, in your view?
    Mr. Trombino. Without understanding all the issues, it 
would be hard for me to respond to that question specifically.
    Senator Gillibrand. Will you commit to me that if you are 
confirmed, within 3 months you will write a letter to me on 
these issues giving me your views?
    Mr. Trombino. If I am confirmed, I will review all the 
issues with regard to the infrastructure bill and specifically 
this and will respond.
    Senator Gillibrand. Privatization and tolling.
    Mr. Trombino. Yes.
    Senator Gillibrand. What I am really worried about is when 
you privatize--the only reason a company would want something 
privatized is if they will make a profit. Unless it is a highly 
economic route, they are going to have to put tolls on roads; 
they are going to have to raise the cost of driving for 
Americans.
    That is of concern to me. I would like to not only hear 
your oral view but to the extent you have pros and cons in your 
own mind, I would like to hear it there.
    Mr. Trombino. Thank you.
    Senator Gillibrand. Thank you so much.
    Thank you, Mr. Chairman.
    Senator Carper. Mr. Chairman, could I make a quick 
unanimous consent request?
    Senator Inhofe [presiding]. Yes.
    Senator Carper. I would ask unanimous consent that two 
letters be entered in the record. The first is a letter of June 
23 sent to Secretary Chao with House Transportation and 
Infrastructure Ranking Member DeFazio. The letter requested 
information about the department's decision not to implement 
the greenhouse gas performance measures in its MAP-21 rules.
    The second letter is a more recent letter of September 27 
that my minority colleagues and I sent to Secretary Chao asking 
her to meet with us about the details of the Administration's 
infrastructure plans.
    I do not expect Mr. Trombino to be aware of these letters 
at this time, but I want to emphasize the importance of our 
receiving complete responses to these and other letters.
    Thank you.
    Senator Inhofe. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
       
    Senator Inhofe. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Mr. Trombino, in 2015 I joined my colleagues in supporting 
the Fixing America Surface Transportation Act, the FAST Act. 
The FAST Act provided about $305 billion of funding for 
transportation infrastructure over a 5 year period of time.
    In your previous position as the Director of the Iowa 
Department of Transportation, you had similar challenges in 
Iowa as we have in South Dakota. You have to manage the flow of 
Federal dollars into the State.
    In your professional opinion, have the funding formulas 
included within the FAST Act worked for rural States like Iowa 
and South Dakota?
    Mr. Trombino. From a funding perspective, as I was the 
State director at Iowa DOT, the biggest thing from our 
perspective is, at times, Federal dollars were uncertain. There 
is a lot of uncertainty in the dollars and understanding. That 
created a lot of difficulty for us to do a long term, high 
capital cost infrastructure plan.
    The more certainty that came in, the better it was for us 
to make plans and implement projects and get the dollars, as I 
said, into infrastructure. With the FAST Act, that did provide 
certainty for us for a period of time, about 5 years. That was 
the key ingredient for us to implement highway improvement 
projects.
    Senator Rounds. During my time on this Committee, I have 
become increasingly concerned about the use of sound science 
Government-wide, more or less to say that the best science and 
data currently available.
    I believe this is an important standard for protecting our 
nation's citizens from administrative bias. I think you will 
find individuals who consider themselves conservative in nature 
as well as those who consider themselves to be more liberal in 
their nature who have expressed concerns about the accuracy of 
the science that is sometimes being utilized or purported in 
some cases not even being delivered by the Science Advisory 
Boards which are available to the different agencies.
    I think this is a very important issue because it is the 
facts that we base a lot of our decisions on. When we cannot 
agree on the facts, when we question those facts, it becomes a 
lot more difficult to have the political will to come back and 
put together the funding necessary for projects.
    As Administrator of the FHWA, you will be charged with 
making decisions that take into account data driven factors 
such as traffic patterns. Should you be confirmed, will you 
commit to basing all of your decisions on the best available 
science and data?
    Mr. Trombino. If I am confirmed, Senator, I would use the 
best available data in order for us to make decisions to 
implement a safe, resilient, and reliable system.
    Senator Rounds. I think you have found on both sides of the 
dais up here--Republican and Democrat alike--you have heard 
comments about the fact that we need good data to make good 
decisions.
    Along the coastline, there is a concern, as we recognize, 
that they have challenges in low lying areas. As we have seen 
sea levels rise, there are projections for them to rise again. 
For those States, they have concerns that are probably 
different than we have in some of the rural areas. We have our 
concerns as well.
    When it comes to using the best available data, it seems to 
me that it would make it a lot easier for us to allow for the 
variables throughout the United States to be taken into 
account.
    While working for the State of Iowa, you had extensive 
experience with the unique circumstances and challenges rural 
States face in obtaining funding for transportation projects. 
Can you elaborate on some of your experiences while working for 
a rural State and how, if confirmed, this would be reflected in 
your management of the Federal Highway Administration?
    You started talking about this a little bit. In some parts 
of the country, toll roads may very well work; the EZ Passes 
and so forth that you find here in this part of the world. 
Something like that in Iowa or South Dakota is simply not a 
part of the culture. What we have, we fund through the State 
funding part of it and so forth.
    Can you talk a bit about the challenges we have in the 
rural States and how you responded kind of from your own 
personal background, how you have seen those challenges being 
met?
    Mr. Trombino. From my perspective, there are a couple of 
things. At the Department of Transportation in Iowa, one of the 
important key things for us was to have flexibility. A lot of 
times as the dollars come down, as the programs got 
consolidated, it gave us a little more flexibility to implement 
the projects that met the needs in the local areas and rural 
areas.
    One of the unique things about the State of Iowa is we are 
covered by planning associations. We have rural planning 
associations or metropolitan planning associations across the 
entire State. We have a very good system to work at the local 
level and at the State level to help make what we think is the 
best decision for each area and implement that project.
    Senator Rounds. I would make one last comment. My father 
was the first State highway safety director in the State of 
South Dakota. He was hired by a guy by the name of Governor Joe 
Foss.
    Ever since that time, I have looked and marveled at how we 
have been able to make improvements and yet there is always 
room for more. I appreciate most certainly your review and your 
specific comments concerning highway safety in the United 
States.
    Thank you.
    Mr. Trombino. Thank you, Senator.
    Senator Rounds. Thank you, Mr. Chairman.
    Senator Inhofe. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Mr. Trombino, as a former director of the Iowa Department 
of Transportation, you understand the important role Federal 
Highway Administration division offices play in the 
infrastructure permitting and approval process.
    I have heard concerns from State and local officials in 
Nebraska that our State division requires significantly more 
documentation for approvals, and that has delayed projects, 
which in turn has increased costs.
    Will you work to ensure that the Federal Highway 
Administration division offices have clear requirements and 
that projects will be approved in a timely manner?
    Mr. Trombino. If I am confirmed, Senator, I will work to 
reach out and understand the issues that have happened in 
Nebraska and visit with not only the agency folks there to make 
sure that we are improving the process as best we can to 
implement projects.
    Senator Fischer. Thank you.
    I have also heard concerns about FHWA's division offices 
not taking into account the needs of the States and localities. 
For example, I have heard about Nebraska's division office not 
accepting the cost-benefit analysis of noise barriers, even 
though that analysis may be approved by the State.
    In some cases, cities have been required to build noise 
barriers even though the State approved analysis showed their 
construction is not reasonable. I believe the State and local 
governments have a better understanding of the needs of their 
communities than the Federal Government. Would you agree with 
that sentiment?
    Mr. Trombino. If I am confirmed--first, I come from a rural 
State and having a good working relationship and good 
communication between Federal Highway and especially the local 
division office is a key ingredient for projects to be 
efficiently done. I would work to improve that as effectively 
as I can.
    Senator Fischer. Would you also work with our State and our 
localities in meeting those needs as well?
    Mr. Trombino. Yes, I will.
    Senator Fischer. Earlier this year, I introduced the Build 
USA Infrastructure Act, which would allow States to voluntarily 
enter into remittance agreements with the Federal Highway 
Administration. Under these agreements, States would receive 90 
percent of the funding allocated to them in exchange for the 
ability to approve environmental approvals and also permits.
    Under your previous experience as director of the Iowa 
Department of Transportation and also as president of AASHTO, 
do you agree that States should play a bigger role when we look 
at the environmental review process?
    Mr. Trombino. If I am confirmed, I would say that we want 
to have a great partnership between USDOT, Federal Highway, 
especially, and the States. Ultimately, project stewards 
implement and deliver that project. Federal Highway; we need to 
support them and help make sure that process, the 
decisionmaking process, meets the law but also is effective in 
the sense of getting the project delivered.
    Senator Fischer. And hopefully streamline it so we don't 
have duplication when it comes to a lot of the permitting. You 
and I had a conversation about this in my office. Anytime you 
look at adding more time to a construction project, we both 
know what happens; costs go up.
    Mr. Trombino. Absolutely.
    Senator Fischer. It is frustrating to watch those costs go 
up through duplication of the permitting process when all of us 
here in the Senate and Congress--and at the State level as 
well--are trying to figure out ways that we can build more, 
that we can promote infrastructure in this country. I hope we 
can work together on that.
    Mr. Trombino. I expect that we will work together. In the 
example I used, U.S. Highway 34 was a Nebraska-Iowa project 
where it was very challenging from a decisionmaking process to 
really help us on the State side to implement that project.
    Senator Fischer. Yes, but because we are neighbors, Iowa 
and Nebraska; it went smoothly. Thank you, sir.
    Mr. Trombino. Thank you, Senator.
    Senator Inhofe. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Mr. Trombino, congratulations on your nomination.
    Mr. Trombino. Thank you, Senator.
    Senator Sullivan. I look forward to having a number of 
discussions with you. One thing I want to emphasize in the 
brief questioning we have here is a lot of States talk about 
how they are unique, but right off the bat, I need to get a 
commitment from you to come up to Alaska and see some of the 
significant challenges we have with regard to infrastructure. 
Let me lay out a couple.
    Eighty-two percent of the communities in my State are not 
connected by road. I am pretty sure that is not the case in any 
other State.
    I am pleased to see your previous State experience in Iowa 
and Wisconsin. Alaska has about 10,000 miles of paved roads. It 
is about roughly 10 times the size of each of the States where 
you were in charge with less than a tenth of the amount of the 
roads.
    We have all kinds of challenges in my State. I would like 
your commitment to come up and see them with me.
    Mr. Trombino. Senator, if I am confirmed as Federal Highway 
Administrator, I will commit to you to come up and visit 
Alaska.
    Senator Sullivan. Great.
    We had Secretary Chao up when we had the transportation and 
infrastructure summit in Alaska this summer. She made a 
statement which I was very pleased by that as we are working on 
infrastructure, the initiative with regard to funding, however 
it is going to be funded, the target is going to be at least 25 
percent of that to rural States. Is that something with which 
you are familiar? Will you commit to that at least number which 
the Secretary announced when she was in Alaska?
    Mr. Trombino. I have not been privy to any of the 
conversations about the potential funding or infrastructure 
plan. That is an area in which I would have to get up to speed 
if I am confirmed.
    Senator Sullivan. Let me ask another question I think you 
are hearing from literally everyone on the Committee, which is 
permitting reform.
    My view is if we undertake major infrastructure without 
regard to permitting reform, we are just wasting money. You 
have probably seen the studies that show from planning to 
permitting to completion of highways in the United States can 
take up to 20 years.
    We all have these nightmares and stories. The Seattle 
Airport, for example, wanted to build a new runway, and it took 
15 years to get the permits.
    I think the Trump administration is doing a great job--the 
CEQ, the President's Executive Order--in a whole host of areas 
to not cut corners but to actually bring some common sense to 
our permitting.
    I have a bill we are very interested in moving forward with 
the White House and the Administration called the Rebuild 
America Now Act which legislatively codifies a lot of what was 
in the President's recent Executive Order on permitting.
    If confirmed, can I get your commitment to work with me and 
my staff on ways--both from an administrative standpoint and a 
legislative standpoint--to get to common sense permitting 
reform so we can actually build infrastructure in this country?
    Mr. Trombino. Yes, if I am confirmed, I will definitely 
work with you on those issues.
    Senator Sullivan. This is a more specific issue. When the 
Secretary was in Alaska this summer, she made an announcement 
regarding a highway project in Alaska that kind of goes to my 
last point that back and forth through studies, through 
regulatory road blocks, it has been studied in my State for 
almost 30 years. It is called the Sterling Highway Project. The 
Secretary made an important announcement to kind of move 
forward on that.
    You are probably not familiar with it, but I want to get 
your commitment that if you are confirmed, to work with me and 
her--she is obviously very motivated about this because she was 
focused on it in her visit to Alaska--to work with us to move 
forward on a really important project for the State that, as I 
mentioned, has been the focus of 30 years of studies. Can I get 
your commitment on that?
    Mr. Trombino. Yes, if confirmed, I will work on that.
    Senator Sullivan. Let me ask a final question.
    What are your top three priorities, if you are confirmed, 
with regard to this critically important position?
    Mr. Trombino. Of the top three things, the first piece is I 
have worked with Federal Highways in two different States and 
have a good sense. They are a great organization. I really have 
to get up to speed with the organization and get to know the 
people. I really want to focus on improving the process.
    At times in my experience in the two States, projects have 
been cumbersome to get out the door. I would really like to 
work with Federal Highway.
    Senator Sullivan. That is a diplomatic word, but I 
appreciate your sense of that.
    Mr. Trombino. And implement an effective process.
    Senator Sullivan. Great. Thank you, Mr. Chairman.
    Senator Barrasso [presiding]. Thank you, Senator Sullivan.
    Mr. Trombino, you have served as leader in departments of 
transportation in Iowa as well as in Wisconsin, relatively 
rural States. You have also served as the leader in the 
national transportation issues, most notably as president of 
the American Association of State Highway and Transportation 
Officials.
    Through these experiences, what did you learn regarding the 
need for Federal policymakers to account for the differences 
between rural and urban transportation issues? How will you 
make sure the FHWA fulfills all of its obligations to rural 
States like Wyoming, like the ones you worked in before and not 
just the urban States like New York, New Jersey, and 
California?
    Mr. Trombino. Mr. Chairman, the first thing is all tools 
and all mechanisms do not work in every State. Having come from 
two different States, rural in some cases and some urban areas, 
the processes and the needs for each State are different. 
Having the opportunity to make sure that we, from the Federal 
Highway perspective, if I am confirmed, provide opportunity and 
flexibility for the State as much as we can within the law to 
make sure they can effectively implement their projects is 
crucial.
    Senator Barrasso. I think we all agree that the highways, 
roads, and bridges are going to be a central component of any 
infrastructure package. I have a two part question. What role 
should the Federal Highway Administration play in developing as 
well as implementing an infrastructure package? If confirmed, 
would you commit to working with this Committee to ensure that 
any infrastructure package addresses the needs of our nation's 
transportation systems in both rural as well as urban areas?
    Mr. Trombino. If confirmed, I will commit to working with 
the Committee on those rural and urban issues in regard to 
transportation. From a development perspective, I have not been 
involved or privy to any of the conversations in regard to 
infrastructure. That is one of the areas, if confirmed, I would 
need to get up to speed in to make sure we are focused on broad 
transportation implications for all States.
    Senator Barrasso. I have raised concerns in this Committee 
with Secretary Chao regarding the U.S. Department of 
Transportation's regulations that I believe unnecessarily 
subject rural State departments of transportation to the same 
rules as urban State departments of transportation.
    If confirmed, will you commit to working with me and 
members of this committee to ensure that regulations, as they 
impact rural States, are common sense and take into account the 
legitimate concerns we see in rural States?
    I ask this as someone--also Senator Fischer, a member of 
this Committee--and she and I both served in our State 
legislatures. She chaired the Transportation Committee in 
Nebraska. I chaired the Transportation Committee in our State 
Senate in Wyoming. We always would see regulations coming down 
that probably made a lot of sense to New York City or for San 
Francisco but made no sense, in her case, for Nebraska, and in 
my case, for Wyoming.
    Mr. Trombino. Yes, I will commit to working with you and 
the Committee to make sure, if I am confirmed, that there are 
opportunities and flexibility for all States.
    Senator Barrasso. Many States believe the highway formula 
funding is important because it enables them to plan 
effectively and properly put funds to work. Do you agree that 
putting more Federal money into existing formula programs 
enables the States to put funds to work more expeditiously than 
creating new programs that are less well understood?
    Mr. Trombino. Formula funding is one way to provide funding 
to States.
    Senator Barrasso. I ask unanimous consent to enter the 
following letters of support for you into the record. I do not 
see any objections.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. I do not see anyone here with additional 
questions.
    If there are no more questions for today, the members may 
submit follow up written questions as we have discussed. They 
can do that for the record by the close of business on 
tomorrow. You should please respond to these questions by the 
close of business on Thursday, October 12.
    I want to thank you and congratulate you again. Thank you 
for your time. Thank you for your testimony.
    The hearing is adjourned.
    [Whereupon, at 10:36 a.m., the Committee was adjourned.]

                                 <all>
</pre></body></html>
